                                                     Office of Inspector General
                                                    Corporation for National and
                                                             Community Service




     AUDITOF CORPORATION
                       FOR NATIONAL
                                  AND



              SERVICE AND       VOLUNTEERISM

               OIG REPORTNUMBER
                              06-36




                                               Cornoration for                -




                         Prepared by:

              COTTON & COMPANY, LLP
                   635 Slaters Lane
               Alexandria, Virginia 223 14




This report was issued to Corporation mansgement on August 24,2006. Under the laws
and regulations governing audit follow-up, the Corporation is to make final management
decisions on the report's findings and recommendations no later than February 26,2007,
and complete its corrective actions by August 24, 2007. Consequently, the reported
findings do not necessarily represent the final resolution of the issues presented.
                                 Audit of Grants Awarded to
               Serve Idaho, Governor's Commission on Service and Volunteerism
                                      Audit Report 06-36

OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Cotton & Company, LLP (Cotton) to perform an audit of
grants awarded to Serve Idaho, Governor's Commission on Service and Volunteerism
(Commission). The audit covered the latest two years of performance through December 31,
2005, for five grants initially awarded during the period January 1,2002, to January 1,2005.

Funding authorized for these grants totaled $1.8 million, with costs claimed totaling about
$1.5 million. The audit identified questioned costs totaling $17,910, most of which were
attributed to unsupported living allowances and related fkinge benefits and costs claimed in
the wrong period.

The report also includes four fmdings and related recommendations to improve compliance
with grant requirements and to improve internal controls. The Commission was responsive
to the recommendations, and the Corporation intends to address all findings and
recommendations in its management decision.

The OIG reviewed Cotton's report and related documentation and made necessary inquiries
of its representatives. Our review, as differentiated £tom an audit in accordance with
generally accepted government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on the Consolidated Schedule of Award Costs, related
exhibits and schedules, or conclusions on the effectiveness of internal controls and
compliance with laws and regulations.

Cotton is responsible for this report, dated April 28, 2006, and the conclusions expressed
therein. However, our review disclosed no instances where Cotton did not comply, in all
material respects, with generally accepted government auditing standards.

This report is a matter of public record, and its' distribution is not limited.




                       1201 New York Avenue, NW* Suite 830, Washington, DC 20525
                         202-606-9390 Hotline: 800-452-8210 www.cncsig.gov         USkfsE
                                                                                   Freedom Corps
                           Senior Corps   * AmeriCorps * Learn and Serve America   h k e o Differen-. Volunk.
                       O m c OF
                              ~ INSPECTORGENERAL
       AUDITOF CORPORATION
                        FOR NATIONALAND COMMUNITY SERVICEAWARDSTO
        SERVEIDAHO,GOVERNOR'SCOMMISSIONON SERVICEAND VOLUNTEERISM




Section                                                                                                                         Page

Executive Summary ...........................................................................................................     1
               .
Independent Auditors Report ............................................................................................
                               3
                                                                                                                                  4

Exhibit A: Consolidated Schedule of Claimed and Questioned Costs ..............................                                   6

Schedule A: Lewis-Clark State College ...........................................................................                 8

Schedule B: Community Action Partnership ....................................................................                    10

Independent Auditors' Report on Compliance and Internal Control ................................. 11

Appendices

A: Commission's Response to Audit Report
B: Corporation's Response to Audit Report
 The Office of Inspector General (OIG), Corporation for National and Community Service
 (Corporation), contracted with Cotton & Company LLP (Cotton) to perform an audit of costs
 incurred by the Serve Idaho, Governor's Commission on Service and Volunteerism
 (Commission). Our audit covered financial transactions, compliance, and internal control
 testing of Commission awards.

 The Commission claimed $1,502,426 during the audit period, of this amount we questioned
 $17,910 or 1%. Questioned amounts were primarily the result of costs claimed in the wrong
 period.



 The Corporation supports a range of national and community service programs that provide
 full- and part-time opportunities for Americans to engage in service that fosters civic
 responsibility, strengthens communities, and provides educational opportunities for those
 who make a commitment to service. State commissions distribute funds to subgrantees that
 administer programs and provide oversight, training, and technical assistance to subgrantees.

 The Commission, located in Boise, has received AmeriCorps grant funds from the
 Corporation since Program Year (PY) 1994-1995. It is housed within the Office of the
 Governor, but operates as part of the Idaho Department of Corrections (IDOC). IDOC
 provides fiscal management for Corporation grants and funds certain match costs claimed by
 the Commission such as labor and occupancy costs.

 11.   AUDITSCOPEAND RESULTS

 Cotton performed an incurred-cost audit including financial transactions, internal controls,
 and grant compliance for the following grants:

Program                                          Award No.            Award Period              Audit Period
Administrative Grant                            04CAHID001         01/01/04-12/31/06        01/01/04-12131105
Professional Develooment and Trainine
Professional Development and Training
                                         .,     02PDSID013
                                                05PTHID001
                                                                   01/01/02-12/31/04
                                                                   01/01/05-12/31/07
                                                                                            01/01/04-12/31/04
                                                                                            01/01/05-12/31/05
AmeriCorvs State Comvetitive                    03ACHID001         09/01/03-08/31/06        09/01/04-03/31/061
~ m e r i ~ o rState
                i s ~ornkla                     03AFHJD002         09/01/03-08/31/06        09/01/04-09130/05




 1 The audit period was extended to 0313 1/06 in order to incorporate all grant activity for PY 04-05. However,
 we did not audit costs claimed on the 03/31/06 Financial Status Report (FSR) related to PY 05-06, those costs
 are not included in Exhibit A.
Audit objectives were to determine if:

       .        The Commission's financial reports to the Corporation presented financial
                award results fairly, and costs were allowable in accordance with award terms
                and conditions:

       .        The Commission's internal controls were adequate to safeguard Federal
                funds; and

       .        The Commission had adequate procedures and controls to ensure compliance
                with Federal laws, applicable regulations, and award conditions.

We conducted our fieldwork between February 28 and April 28,2006.

In addition to testing, we performed site visits at two subgrantee program sites with 195
members, and we sampled 52 of these members. We also reviewed the financial
management system at one additional site and controls over financial reporting and member
activities at a fourth site.

Cost Findings

The Commission claimed $1,502,426 during our audit period, as identified in Exhibit A,
Consolidated Schedule of Claimed and Questioned Costs. Of this amount, we questioned
$17,910. Except for questioned costs, the costs claimed by the Commission appear fairly
stated and allowable in accordance with award terms and conditions. Questioned amounts
primarily relate to unsupported costs and costs claimed in the wrong period. We also
questioned certain claimed match costs because they were unsupported or improperly valued.
These questioned costs are not identified in the schedules because they did not result in
unmet matching requirements, which would have affected the allowability of Federal costs.

Compliance and Internal Control Findings

We have also issued a report, titled Independent Auditors' Report on Compliance and
Internal Control, on our consideration of the Commission's internal control and compliance
with laws and regulations. In that report, we identified four issues of noncompliance
(Finding Nos. 1 through 4) that are required to be reported under generally accepted
government auditing standards. These noncompliance issues also affect the Commission's
internal control over financial reporting and its operation. They are summarized as follows:

1.     The Commission had inadequate procedures to ensure that subgrantees documented
       member activities and that member living allowance payments were proper.

2.     The Commission had inadequate subgrantee monitoring procedures.

3.     The Commission's procedures to ensure compliance with certain grant provisions
       were inadequate.
4.     The Commission's financial management system was inadequate.

111.   EXITCONFERENCE
                   AND RESOLUTION

We conducted an exit conference with Commission and Corporation representatives on June
8,2006. Their responses to this draft report are included as Appendices A and B,
respectively. In addition, we included a summary of the Commission's comments in the
Independent Auditors' Report on Compliance and Internal Control.
  Cotton6
 Company


 April 28,2006

 Ofice of Inspector General
 Corporation for National and Community Service


                                   INDEPENDENT
                                            AUDITORS'REPORT


 We have audited costs incurred bv Serve Idaho. Governor's Commission on Service and
 Volunteerism, for Program Years (PY) 2004-2005 for the grants listed below. These costs
 are presented in Exhibit A, Consolidated Schedule of Claimed and Questioned Costs, and are
 the ~esponsibilityof ~om&ssionmanagement. Our responsibility is to express an opinion
 on these costs based on our audit.

Program                                          Award No.           Award Period                 Audit Period
Administrative Grant                            04CAHID001        01/01/04-12/31/06             01/01/04-12/31/05
Professional Development aid Training           02PDSIDO13        01,01 02-12 31 04             01 01 04-12 31 04
Professional Development and Training-          OjPTHlDOOI        01 / O I , O j - I 2 3 1 07   01/01,05-12 3 1 05
AmeriCorps State competitive                    03ACHID001        09/01/03-08131106             09/01/04-03/31/06'
AmeriCorps State Formula                        03AFHID002        09/01/03-08131106             09/01/04-09/30/05

 We conducted our audit in accordance with audit standards generally accepted in the United
 States of America and generally accepted government auditing standards. These standards
 require that we plan and perform the audit to obtain reasonable assurance about whether
 financial schedules are fkee of material misstatement. An audit includes examining, on a test
 basis, evidence supporting amounts and disclosures in Exhibit A. An audit also includes
 assessing accounting principles used and significant estimates made by management, as well
 as evaluating overall fmancial presentation. We believe that our audit provides a reasonable
 basis for our opinion on incurred costs.




 I The audit period was extended to 03/31/06 in order to incorporate all grant activity for PY 04-05. However,
 we did not audit costs claimed on the 03/31/06 Financial Status Report (FSR) related to PY 05-06, those costs
 are not included in Exhibit A.
Exhibit A is intended to mesent allowable costs incurred under the awards in accordance
with applicable Office of Management and Budget (OMB) circulars and award terms and
conditions. Exhibit A is not intended to be a complete presentation of the Commission's
fmancial position in conformity with accounting h c i p l e s generally accepted in the United
States of America.

In our opinion, except for questioned costs noted in Exhibit A, the financial schedule presents
fairly, in all material respects, costs claimed for the grants in conformity with applicable
OMB circulars and award terms and conditions.

In accordance with generally accepted government auditing standards, we have also issued a
revort dated Avril28.2006. on our consideration of the Commission's internal control and
compliance with laws and regulations. That report is an integral part of an audit performed
in accordance with generally accepted government auditing - standards and should be read in
conjunction with this repoiin c o n ~ i d e &audit
                                             ~ results.

This report is intended solely for the information and use of the OIG, Corporation for
National and Community Service, Commission, and U.S. Congress and is not intended to be
and should not be used by anyone other than these specified


     & COMPANY
COTTON       LLP




Sam Hadley, CPA
Partner
         SERVEIDAHO,GOVERNOR'SCOMMISSION
                                       ON SERVICEAND VOLUNTEERISM
            CONSOLIDATEDSCHEDULEOF CLAIMEDAND QUESTIONEDCOSTS
            CORPORATIONFOR NATIONAL
                                  AND COMMUMTY  SERVICEAWARDS


                                               Federal Costs
Award No.                      Awarded            Claimed           Questioned       Reference
04CAHID001                     $290,262           $271,529               $207          Note 1
02PDSIDO13                       74,035             63,843               1,114         Note 2
05PTHID001                       95,000             67,866
03ACHID001
  Lewis-Clark                    847,527            776,157              5,379       Schedule A
  University of Idaho            260.382            175.340             -

                             $1,107,909
03AFHID002
  Idaho Cities                                                        $10,872          Note 3
  Community Action             $1 86.000                                  338        Schedule B


Totals                       $1.753.206         $1.502.426            $17.910


1.       The Commission claimed $207 of prior-period expenses: $138 for a telephone
         conference conducted during Calendar Year (CY) 2002 and $69 of a mileage
         reimbursement for travel incurred during CY 2003. 45 C.F.R. 5 2541.230, Period of
         availability offunds, requires that a recipient charge the grant only for allowable costs
         resulting from obligations incurred during the funding period. The Commission
         identified these expenses after the previous administrative grant had closed. The
         Commission was unaware that Corporation approval was required to claim these
         costs under the next administrative grant. We questioned $207 of claimed Federal
         costs.

2.       The Commission claimed consulting services in excess of allowable limits. It
         claimed a $2,000 fee paid to an individual who provided two days of consulting
         services at the Serve Idaho Conference in March 2004. The 2004 Provisions for
         Program Development and Training, Disability Placement and State Administrative
         Awards, Section C. 12.e., Consultant Services, requires payments to individuals for
         consultant services under this grant to not exceed $443 per day. The Commission did
         not obtain documentation from the consultant to support the consultant's time and
         related expenses preparing for the Serve Idaho Conference. We questioned $1,114,
         the difference between the allowable limit of $886 for two days of consulting services
         and the claimed $2,000.
3.   The Commission made a $10,872 payment to the League of Idaho Cities during PY
     2004-2005 for costs incurred during PY 2003-2004. The Financial Status Report
     (FSR), filed by the Commission supported claimed Federal expenditures of $147,691;
     its accounting system, however, supported $136,819. The $10,872 difference
     occurred when the Commission recorded this amount as a current-period expense on
     its FSR rather than correctly recording it as PY 2003-2004 expense. As a result,
     claimed Federal expenditures exceed supported Federal expenditures by $10,872 in
     PY 2004-2005. 45 C.F.R. 5 2541.230, Period ofavailability offunds, requires that a
     recipient charge the grant only for allowable costs resulting from obligations incurred
     during the hnding period. We questioned $10,872 of Federal costs.
     SERVEIDAHO,GOVERNOR'SCOMMISSION
                                   ON SERVICEAND VOLUNTEERISM
            SCHEDULEOF CLAIMED
                             AND QUESTIONED
                                          COSTSUNDER
        CORPORATIONFOR NATIONAL
                              AND COMMUMTY SERVICEAWARDS




                                                      Amount        Notes
          Claimed Federal Costs                       $776.157

          Questioned Federal Costs:
            Unsupported Costs                              $40         1
            Unallowable Living Allowance and
              Related Fringe Benefit                     5,295         2
            Unallowable Advertisement Costs               44           3
          Total Questioned Federal Costs                $5.379


I.   Lewis-Clark State College (Lewis-Clark) claimed $40 for CPR certification training
     for a member. We were, however, unable to verify fkom documentation provided to
     support the reimbursement that it was for CPR training. The 2004 AmeriCorps
     Provisions, C.22.b, Financial Management Provisions, Source Documentation,
     requires that adequate supporting documentation be maintained to support grant
     expenditures. We questioned $40 of claimed Federal costs.

2.   Lewis-Clark continued to pay living allowance and related benefits to three members
     who left the program without completing all of the service requirements needed to
     earn education awards. The 2004 AmeriCorps Provisions, B.l l.b., Living Allowance
     Distribution, states that the living allowance is designed to help members meet
     necessary living expenses incurred while participating in the AmeriCorps Program.
     Lewis-Clark did not have a policy for situations where members suddenly stopped
     showing up for service. Lewis-Clark wanted to provide the members with an
     opportunity to complete their service and continued to pay the members' living
     allowances and related benefits while it attempted to contact the members to verify
     their status. We questioned $5,295 of claimed Federal costs paid to the three
     members.
3.   Lewis-Clark claimed $44 for an advertisement seeking a Volunteers In Service To
     America (VISTA) member to serve at Lewis-Clark's Boise regional office. VISTA is
     another program supported by the Corporation. According to OMB Circular A-21,
     Cost Principals for Educational Institutions, C.4., Allocable Costs, a cost must be
     allocable to the grantee's Federal award to be allowable. Lewis-Clark was unaware
     that it could not claim these costs on this grant, even though the work performed by
     the VISTA member benefited the AmeriCorps program. We questioned $44 of
     claimed Federal costs.
     SERVEIDAHO,GOVERNOR'SCOMMISSIONON SERVICE
                                             AND VOLUNTEERISM
            SCHEDULEOF CLAIMED
                             AND QUESTIONEDCOSTSUNDER
        CORPORATIONFOR NATIONALAND COMMUMTY SERVICEAWARDS




                                                     Amount         Note
           Claimed Federal Costs                     $136.819

           Questioned Federal Costs:
             Unallowable Advertisement Costs             $338         I



1.   Community Action Partnership claimed newspaper advertising costs for recruiting
     PY 2005-2006 members as PY 2004-2005 expenses. It did not obtain approval for
     these pre-award costs as required by OMB Circular A-1 10, Uniform Administrative
     Requirements for Grants and Other Agreements with Institutions of Higher
     Education, Hospitals and Other Non-Projt Organizations, C. 28., Period of
     availability offunds. We questioned $338 of claimed Federal costs.
  Cotton6
 Company

 April 28,2006

 Office of Inspector General
 Corporation for National and Community Service




 We have audited costs incurred by the Commission to the Corporation for National and
 Community Service for the following awards and have issued our report thereon dated April
 28,2006. We conducted our audit in accordance with auditing standards generally accepted
 in the United States of America and generally accepted government auditing standards.

Program                                           Award No.           Award Period              Audit Period
Administrative Grant                             04CAHID001         01/01/04-12/31/06        01/01/04-12/31/05
Professional Development and Training            02PDSID013         01/01/02-12/31/04        01/01/04-12/31/04
Professional ~ e v e l o k e nand
AmeriCorps State ~;mpetitive
                              t ~rainine  -      05PTHID001
                                                 03ACHID001
                                                                    01/01/05-12/31/07
                                                                    09101103-0813106
                                                                                             01/01/05-12/31/05
                                                                                             09101101-0313106'
AmeriCorps State Formula                         03AFHID002         09101 03-08131106        09101 04-09130,05


 COMPLIANCE
         WITH LAWSAND REGULATIONS

 As part of obtaining reasonable assurance about whether financial schedules were free of
 material misstatements, we performed tests of compliance with certain provisions of laws,
 regulations, and awards, noncompliance with which could have a direct and material effect
 on determination of financial schedule amounts. Providing an overall opinion on compliance
 with these provisions was not an objective of our audit and, accordingly, we do not express
 such an opinion. Test results disclosed instances of noncompliance that are required to be
 reported under generally accepted government auditing standards. These are discussed
 below (Findings Nos. 1 through 4).




 I The audit period was extended to 0313 1106 in order to incorporate all grant activity for PY 04-05. However,
 we did not audit costs claimed on the 03131106 Financial Status Report VSR) related to PY 05-06, those costs
 are not included in Exhibit A.
INTERNAL
       CONTROL
             OVER FINANCIAL
                          REPORTING

In planning and performing our audit, we obtained an understanding of the Commission's
internal control over financial reporting to determine audit procedures for the purpose of
expressing our opinion on the financial schedules and not to provide assurance on internal
control over financial reporting. We noted matters involving internal control over financial
reporting and its operation, however, that we consider reportable conditions. Reportable
conditions involve matters coming to our attention relating to significant deficiencies in the
design or operation of internal control over financial reporting that, in our judgment, could
adversely affect the Commission's ability to initiate, record, process, and report financial
data consistent with assertions of management in the financial schedules (Finding Nos. 1
through 4 below).

A material weakness is a condition in which the design or operation of one or more of the
internal control elements does not reduce, to a relatively low level, the risk that
misstatements in amounts that would be material in relation to the financial schedules being-
audited may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions. Our consideration of internal control over
financial reporting would not necessarily disclose all matters in the internal control structure
that might be reportable conditions and that are also considered material weaknesses. We do
not consider any findings to be material weaknesses.



1.     The Commission had inadequate procedures to ensure that subgrantees
       documented member activities and that member living allowance payments were
       proper.

The Commission did not adequately document all member activities in accordance with
AmeriCorps Provisions:

       .       Mid-term and final evaluations were unavailable;

       .       Enrollment and exit forms were submitted late, missing, or were signed before
               or after the member service period;

       .       Member timesheets were prepared in pencil and contained corrections not
               initialed by members or supervisors; and

       .       Members continued to receive living allowance payments and related benefits
               after completing service.
Evaluations

Mid-term and final evaluations were unavailable. Program personnel at two sites could not
provide a mid-term evaluation for one member and did not perform final evaluations for 11
members. The subgrantees were unaware that they should perform final evaluations for
members who were terminated or left the program without completing the necessary service
requirement to earn an education award. Also, a third subgrantee not visited did not perform
final evaluations for members who left the program early, because it did not think they were
required for all members.

Evaluations are necessary to ensure that members are eligible for additional service terms.
According to 45 C.F.R. 5 2522.220(d), Participant performance review, a participant is not
eligible for a second or additional term of service and/or for an AmeriCorps education award
without mid-term and final evaluations. Grantees also are required to conduct mid-term and
final evaluations at a minimum of each member's performance and document that the
member has:

       .       Completed the required number of hours;

       .       Satisfactorily completed assignments; and

       .      Met other performance criteria that were clearly communicated at the
              beginning of the service term.

Enrollment and Exit Forms

Enrollment and exit forms were submitted late, missing, or were signed before or after the
member service period. The Commission did not ensure that subgrantees submitted all
required exit forms in a timely manner. At the two sampled program sites, 12 exit forms
were not entered into Web Based Reporting System (WBRS) within the required 30 days.

The 2004 AmeriCorps Provisions, B. 16.b., Reporting Requirements, AmeriCorps Member
Related Forms, requires that member enrollment forms be submitted to the Corporation no
later than 30 days after a member is enrolled, and that member exit forms be submitted no
later than 30 days after a member exits the program. We noted the following:

       .       One subgrantee submitted nine exit forms late, because it was uncertain if the
               forms were required to be submitted 30 days after the members completed
               service or 30 days after the form was received by the program office.

       .      Another subgrantee submitted three exit forms late. It submitted two of three
              late exit forms after exit interviews were conducted with the members. The
              third late submission was an error on the part of the program manager.
The Commission also did not ensure that subgrantees completed and signed all required
enrollment and exit forms. Specifically:

       .      Two member enrollment forms were signed after the members started service;

       .      Three exit forms were signed and dated before the members completed
              service; and

       .      Files for three members did not contain exit forms.

The 2004 AmeriCorps Provisions, B.16. b. Reporting Requirements, AmeriCorps Member-
related Forms require the entrance and exit forms be submitted no later then 30 days and
hard copies must be maintained.

Member Service Hours

Members at one sampled subgrantee site estimated service hours on timesheets and
subsequently adjusted timesheets to reflect actual service hours. The subgrantee required
members to submit their timesheets several days before the end of each pay period to give the
subgrantee more time to process payroll because the last day of the pay period was close to
the date the living allowance payments were due. Further, the timesheets completed by the
members and the changes to the timesheets for both sampled subgrantees were done in pencil
and were not initialed by the member or supervisor.

The 2004 AmeriCorps Provisions, C.22.c. Financial Management Provisions, Time and
Attendance Records, requires that grantees keep time-and-attendance records for all
AmeriCorps members to document their eligibility for in-service and post-service benefits.
The Corporation uses time-and-attendance information in WBRS to track member status, and
this data is the basis for calculating education awards. When timesheets are prepared with
estimated hours and are subsequently adjusted there is the potential that members may not
actually serve the required number of service hours, but may still earn an education award.
In addition, when timesheets are prepared with pencil and changes are made without initials,
the changes are not authorized and accountability is lost.

Member Living Allowance Payments

Members continued to receive living allowance payments and related benefits after
completing service. One subgrantee, Lewis-Clark, continued to make living allowance
payments to 23 members who completed the minimum number of service hours required to
earn the education award, but no longer served in the program. Lewis-Clark also continued
to pay living allowances and related benefits to three additional members who left the
program without completing all service requirements (Schedule A, Note 2).
The second snbgrantee paid lump-sum payments to six members after they completed the
                                                                                     -
minimum number of service hours to earn the education award before the end of the program
                                                                                      A



term. The lump-sum payments were equal to the remaining living allowance the member
would have earned if they had not completed the program early.

The 2004 AmeriCorps Provisions Section B.1 l.b., Living Allowances, In-Service Benefits,
and Taxes, Living Allowance Distributions, states that living allowances are designed to help
members meet necessary living expenses incurred while participating in the program.
Programs are not allowed to pay members on an hourly basis, and must not be based on the
number of hours a member serves. Both of the subgrantees incorrectly understood this
provision to mean that members were entitled to the full living-allowance amount stated in
the member contracts as long as the minimum service hours were completed.

Recommendation: We recommend that the Corporation ensure that the Commission
strengthens its program monitoring procedures to comply with grant requirements regarding
member activities, including:

       .       Complying with grant requirements for conducting member evaluations and
               retaining documentation;

       .       Documenting member enrollment and exit promptly and submitting this
               information to the Corporation on a timely basis;

       .       Recording member hours accurately and in accordance with program
               provisions; and

       .       Ensuring that subgrantees calculate and pay living allowances in accordance
               with program provisions.

Commission Response: The Commission is providing training to subgrantees on the
importance of providing- timely evaluations, enrollment and exit forms. The Commission is
requiring subgrantees to revise timesheet policies to ensure that timesheets are prepared after-
the-fact. Additionally, it has created a policy, along with the Corporation, to establish
member 'terms of service' to ensure that members are paid evenly during the term and not
based on hours worked. Policies and procedures have been established (and subgrantees
have been trained) to ensure that supervisors immediately take action when members quit or
are suspended.

Auditors' Comments: We believe the actions taken by the Commission effectively address
the recommendations.
2.     The Commission had inadequate subgrantee monitoring procedures.

The Commission performed routine site visits of subgrantees and reviewed subgrantee
documentation. It did not, however, always perform adequate reviews of procedures to
ensure that snbgrantees claimed only allowable costs and had adequate financial management
systems, review OMB Circular A-133 reports, and document procedures performed during
its site visits.

Allowable Costs

The notes to Schedules A through B describe questioned Federal costs of $5,717. The two
subgrantees visited also claimed $1,889,740 of unallowable match costs. A questioned cost
is an alleged violation of provision of law, regulation, contract, grant, cooperative agreement,
or other agreement or document governing the expenditure of funds; a finding that, at the
time of the audit, such cost is not supported by adequate documentation; or a finding that the
expenditure of funds for the intended purpose is unnecessary or unreasonable. While all
unallowable costs could only be disclosed by reviewing every invoice and available
documentation, the Commission might benefit from sampling claimed costs on subgrantee
invoices and obtaining a better understanding of how subgrantees support match.

The Commission did not ensure that each subgrantee had adequate procedures for claiming
allowable match costs. We noted that:

       .       One subgrantee claimed in-kind labor match costs of $1,500,706 and in-kind
               fringe benefit match costs of $360,170 for supervision hours expended by
               personnel at the approximately 40 project sites that hosted members. The
               value of the in-kind labor and fringe was calculated by multiplying the total
               number of supervision hours by a budgeted labor and fringe rate.

               As required OMB Circular A-1 10 Uniform Administrative Requirements for
               Grants and Other Agreements with Institutions ofHigher Education,
               Hospitals and Other Non-Profit Organizations, Subpart C.23, these costs
               should have been valued at a supervisor's regular rate of pay, plus a
               reasonable amount of fringe benefits, and should have excluded overhead
               costs.

               The subgrantee developed budgeted labor and fringe benefit rates to account
               for different labor and fringe benefit rates for supervisors at the 40 project
               sites and to eliminate the task of gathering actual labor and benefit
               information. The subgrantee considered the rates reasonable estimates of the
               actual salaries and benefits for supervisors at the project sites.

       .       One subgrantee claimed $13,178 for match of unsupported personnel costs.
               The subgrantee erroneously entered the wrong amount into its financial
               reports and did not identify the error.
       .      One subgrantee claimed match costs of $15,686 for rent, supplies, postage,
              telephone, and printing and publications expenses from an entity within the
              subgrantee whose members performed senkes. The subgrantee was unable
              to provide documentation for how it determined that the percentage of costs
              claimed supported the AmeriCorps program.

Financial Management Systems

The Commission did not ensure that each subgrantee had an adequate financial management
system. In addition to unallowable and unsupported costs claimed by subgrantees, we noted
that:

       .      Two subgrantees had inadequate labor distribution systems to support claimed
              staff labor costs. These costs were not supported by after-the-fact labor
              distribution records, as required by applicable OMB circulars. Personnel at
              one subgrantee were unaware that they were required to complete after-the-
              fact documentation. Personnel at the second subgrantee estimated hours,
              because the timesheets were completed several days before the end of the pay
              period.

       .      One subgrantee did not have adequate records for tracking in-kind match from
              project sites that hosted members. The subgrantee maintained a spreadsheet
              as part of its system to track the $2,623,989 of in-kind labor, fringe benefit,
              training, supplies, and material contributions from the approximately 40 sites
              that hosted members. It continuously updated the spreadsheet as in-kind
              match from the host sites were received. The subgrantee's spreadsheet for PY
              2004-2005 in-kind contributions, however, reported $28,588 more than the
              amount of in-kind contributions reported on the FSR.

       .      The forms used by two subgrantees to document in-kind contributions from
              host sites were inadequate to ensure that the contributions were not obtained
              with, or supported by, Federal funds. Additionally, the forms lacked
              information needed to determine if the contributions were not included as
              contributions for any other Federally assisted program or project.

       .      One subgrantee did not report as program income approximately $244,244 of
              fees charged to sites that hosted AmeriCorps members during PY 2004-2005.
              The subgrantee used this income to fund member support match. At the end
              of the program year, the subgrantee transferred the remaining $27,384 to
              another university account, but used the funds for the subgrantee's
              AmeriCorps Program.

       .      We reviewed financial reporting at two sites. Of these two sites, one site did
              not file one FSR and three progress reports in a timely manner.
OMB Circular A-133 Reports

The Commission had inadequate procedures for reviewing subgrantee OMB Circular A-133
reports and did not obtain all OMB Circular A-133 audit reports for all periods that
Commission exuenditures were incurred. The Commission also did not obtain the
management letters associated with the OMB Circular A-133 audit reports or perform
reconciliations of Commission expenditures included in the audit report to amounts paid to
subgrantees.

Site Visit Documentation

The Commission performed periodic site visits to subgrantees. It followed a site plan to
ensure that significant areas were covered. However, the Commission's monitoring tool did
not require that all activities performed be documented and some sections of the monitoring
tool were not always completed. The monitoring tool did not include procedures to ensure
compliance with the AmeriCorps guideline that members are entitled to receive living
allowances only while in service.

Recommendation: We recommend that the Corporation ensnre that the Commission:

       .       Strengthen subgrantee monitoring procedures to include more detailed
               reviews of allowable costs and documentation to ensure that subgrantees
                                                                              .        have
               adequate financial management systems;

       .       Obtain all OMB Circular A-133 reports and management letters and perform
               all necessary reconciliations;

       .       Improve its monitoring procedures to better document activities performed
               during site visits; and

       .       Upon completion of audit resolution, calculate and reimburse the Corporation
               for any administrative costs associated with any disallowed costs.

Commission Response: The Commission has revised in-kind match reporting systems to
include detail on calculations and calculate supervisory labor based on actual labor rates and
fringe benefits provided. The Commission is recalculating allowable match costs for the PY
2004-2005 and to-date costs for PY 2005-2006. The Commission will ensure that all
subgrantees are trained on how to capture and value in-kind services, as well as adequately
document that claimed match was not used on other Federally assisted programs.

The Commission is working with each subgrantee to require after-the-fact time reporting.
Additionally, it has requested guidance from the Corporation to adequately report all
program income (because WBRS does not require that information),and willdraft a revised
policy when that is resolved.
                                                                                       -
The Commission has collected and reviewed all A-133 revorts for veriods that subgrantees
incurred costs under the Corporation grants, and has revised its' policy to obtain those
reports. The Commission questioned the need for obtaining management
                                                                   -        letters if the
sibgrantee is not part of the active Commission portfolio. -

The Commission has revised its' site visit checklist to better document activities performed
during site visits. It has also revised its policies to ensure that both members of the site visit
team review the form for completion and accuracy. Additionally, the Commission will
include a more detailed review of allowable costs and adequate documentation and to ensure
that subgrantees have an adequate financial management system.

Auditors' Comments: We believe the actions taken by the Commission effectively address
the first three recommendations. The Commission did not comment on the fourth
recommendation. However, the Commission must rely on the Corporation's resolution of
questioned costs.

3.      The Commission's procedures to ensure compliance with certain grant
        provisions were inadequate.

The Commission did not ensure that subgrantees obtained adequate and timely criminal
background checks for members who had substantial, direct contact with children.
Specifically:

        .      One Commission subgrantee did not have documentation to support that
               criminal background checks were initiated, or that results of criminal
               background were received by the program site for two members;

        .      One subgrantee relied on a background check for a member that was
               conducted by a school system three years before the member started service;
               and

        .      One subgrantee initiated background checks when the members started
               service; however, it did not receive interim background check results for these
               members for approximately five months after the members started service and
               began working with children.

The 2004 AmeriCorps Provision B.6.k Criminal Record Checks, requires, to the extent
permitted by state law, that criminal background checks be conducted of members as part of
the screening process. The Commission did not identify a state law that it followed for
background checks for members. Thus, it should follow the AmeriCorps Provision
requirement that the background check results be considered as part of the screening process
for members.

The Commission and two subgrantees did not comply with or did not adequately document
compliance with grant provisions on member contracts and miscellaneous grant
requirements. Specifically:
      .      At the two subgrantee sites, member agreements were signed after members
             started service. One subgrantee had members sign agreements at an
             orientation meeting which was conducted about a month after the beginning
             of the program year. Three of 14 sampled members for another subgrantee
             submitted signed agreements after starting their service.

      .      The Commission's record-retention policies did not comply with grant
             retention requirements. The Commission's financial records are maintained
             by IDOC. IDOC follows the State of Idaho record-retention policies, which
             require records be maintained for three years after the close of the fiscal year.
             The Commission noted that it retains copies of financial information
             transmitted to IDOC and programmatic files in accordance with AmeriCorps
             Provisions. Copies of the financial information retained by the Commission
             may not include all of the records to support claimed costs and those records
             that support claimed costs maintained only at IDOC would no longer be
             retained.

             The 2004 AmeriCorps Provisions, C.27, Retention ofRecords, requires that
             grantees retain all program and financial records for three years from the date
             of submission of the final FSR. Additionally, if an audit is started before
             expiration of the three year period, records must be retained until audit
             findings are resolved and final action is taken.

      .      The Commission did not document, in the subgrantee selection process, how
             it considered the adequacy of new applicant and current subgrantee financial
             management systems and results of subgrantee compliance with program
             requirements. Commission personnel orally communicated this information
             to peer reviewers, but this information was not included, as a requirement, in
             the tool used by the peer reviewers.

Recommendation: We recommend that the Corporation ensure that the Commission:

      .                            -
             Obtain criminal background checks for all members and maintain
             documentation for each member and revise its policies and procedures to
             require that criminal background check results be considered as part of the
             screening process;

      .      Require the signing of member contracts before members start service;

      .      Revise record-retention policies to comply with grant provisions; and

      .      Improve documentation of its consideration of the adequacy of financial
             management systems and compliance with program requirements in the
             subgrantee selection process.
Commission Response: The Commission has revised its' policy requiring criminal
background checks on prospective members during recruitment, and background checks are
in process for members identified in this report. Additionally, all subgrantees have
established a policy requiring criminal background checks prior to enrollment. The
Commission noted that it is difficult to receive the results in a timely manner and will work
with the State to expedite the process. The Commission will continue to include a review of
contracts in site monitoring visits.

The Commission noted that the records kept by its' fiscal agent were kept in accordance with
the State of Idaho retention policies, and has now changed its' policies to keep grant files
separate from other records and retain them as long as necessary.

Finally, a new policy has been drafted whereby the Commission will provide written reports
to its Peer Review Committee on subgrantees' compliance and financial management
systems. The document that summarizes the scoring of each subgrantee will also be revised
to identify that attribute.

Auditors' Comments: We believe the actions taken by the Commission effectively address
the recommendations.

4.     The Commission's financial management system was inadequate.

The Commission did not have an adequate financial management system to support all
claimed costs and ensure that claimed costs met grant requirements. Specifically, the
Commission claimed unallowable and unsupported costs under its Administrative and PDAT
grants totaling $12,193 (discussed in Exhibit A, Notes 1 through 3). It also did not have
adequate procedures for documenting and recording match and in-kind donations:

       .       The Commission claimed $829 for an in-kind donation from a restaurant for a
               luncheon. The Commission did not obtain documentation from the restaurant
               to confirm the contribution or support its value;

       .       The Commission claimed cash contributions of $5,300 as match expenses.
               The money was given to a third-party organization to partially fund a
               conference. The Commission was unable to provide documentation to
               support actual costs incurred and to ensure that conference expenses in excess
               of cash contributions were not paid with Federal funds;

       .       The Commission claimed $800 of match representing its estimate of the fair
               market value for two scanners, one printer, and four toner cartridges
               transferred from the Governor's Office. Because the Commission is part of
               the Governor's Office, these items should have been valued at cost; and

       .       As of the December 3 1,2005, FSR for the current Administrative grant, the
               Commission did not report enough matching costs to meet the cost-share
               requirement. Federal share of costs exceeded recipient costs by $21,261. If
              the Commission were to have closed the grant as of this date, it would have
              had to reimburse $13,329 of Federal costs to the Corporation as the result of
              unmet match requirements, including the unallowable match costs identified
              above.

Recommendation: We recommend that the Corporation ensure that the Commission:

       .      Develop procedures to adequately document and record in-kind contributions
              fiom third parties, properly values all matching costs; and

       .      Develop procedures to monitor grant match requirements and ensure that
              requirements are being met throughout the grant award.

Commission Response: The Commission has corrected all unsupported or improperly
calculated in-kind costs. The Commission will continue to monitor progress
                                                                  . -      on the
acquisition of matching documentation and monitor that progress on a quarterly basis to
ensure match requirements are met.

Auditors' Comments: We believe the actions taken by the Commission effectively address
the recommendations.

This report is intended for the information and use of the OIG, Commission, and U.S.
Congress and is not intended to be and should not be used by anyone other than these
specified parties.


     & COMPANY
COTTON       LLP




Sam Hadley, CPA
Partner
P.O. Bw 83720
h i w , m 83730-0018
                    July 25, 2006

                    Carol Bates, Acting lnspector General
1299N.Ord~d         Corporation for National and Community Service
Suib 110            Office of Inspector General
Bokc,m 83%          1201 New York Avenue, NW, Suite 830
                    Washington, DC 20525
B8.658.2063
                    Dear Ms. Bates,
In Idaho: 800.588.3334
     208.3z7.74m       Please accept this response to the Draft Report on the Audit of Corporation for
                    National and Community Service Grants awarded to Serve Idaho, Governor's
mA-.dahOOorg        Commission on Service and Volunteerism. Serve ldaho viewed this audit as an
                    opportunity to strengthen its policies and procedures and overall performance.
                    Serve ldaho had a positive experience working with Cotton and Company. The
                    following response follows the format of the Draft Report.

                                                    Exhibit A
               Response:

                    Serve Idaho's Financial Technician is working with the Corporation for National
                    and Community Service to get approval to claim the $207 in questioned costs on
                    the current state administrative grant.

                    Serve ldaho is requesting a breakdown of hours for services provided and fees to
                    justify a $2,000 expenditure that was made to a keynote speaker Itrainer for the
                     Serve ldaho Conference.

                    The Financial Status Report in question is correct. The FSR is cumulative for a
                    three-year period so it has been reported correctly on the final FSR.

                                                                  -
                                 Lewis Clark State Collese Schedule A
               Response:

                    A procedure has been established to ensure that all reimbursement
                    documentation states directly the purchase. All CPR documentation will be
                    entered into a spreadsheet that will include expiration dates. This will be
                    checked against any reimbursement. CPR training for all members will be done
                    at their Pre-Service Orientation which will provide a better system of payment for
                    this cost.
        Lewis Clark State College (LCSC), in consultation with Serve ldaho and the
        Corporation for National and Community Service, has created a policy beginning
        PY 2006-07 to establish 'Terms of Service' over 10, IIor 12 months and living
        stipends will be paid according to their term of service. Beginning and ending
        months will be broken out by thirds depending upon each member's start and
        end date and will receive hislher living stipend accordingly. If a member leaves
        the program early, his 1 her living stipend will be discontinued immediately.

        Policies and procedures (unexcused absence and exit procedures) have been
        established and all staff and sites have been trained in those processes to
                                                                      a
        ensure that host site supervisors contact staff immediately if member
        discontinues his I her service prior to their agreed upon end-date. All members
        will be trained in this process during their enrollment session prior to beginning
        their service year.

   ,~
        LCSC has established a policy to charge all VISTA recruitment costs to their
        match account. Serve ldaho Commission will continue to provide training on
        allowable costs to all sub-grantees once a year and work with them individually
        as needed.

                  Communitv Action partners hi^ Schedule B-
Response:

        The grants in question have been closed out. The Community Action
        Partnership LCSC has established a policy to charge all recruitment costs to their
        match account. Serve ldaho Commission will continue to provide training on
        allowable costs to all sub-grantees once a year and work with them individually
        as needed.

  Serve Idaho. Governor's Commission on Service and Volunteerism

   1. The Commission had inadequate procedures to ensure that sub-grantees
      documented member activities and that member living allowance payments
      were proper.

Response:

        Serve ldaho will continue to provide comprehensive compliance training annually
        to its sub-grantees. We will include specific training on the timeframe to enter
        enrollment and exit forms into WBRS and the requirement of mid- and end-of-
        term evaluations.




                                       -
Serve ldaho Response to OIG Draft Report 7 pages                               July 24,2006
       Serve ldaho will also review procedures for correcting and initialing timesheets
       and establishing a policy that all information included on a timesheet is written in
       pen or submitted via computer.
       The sub-grantee in question is redesigning their policy related to the timing of the
       submission of AmeriCorps Member timesheets.

       The sub-grantee, in consultation with Serve ldaho and the Corporation for
       National and Community Service, has created a policy beginning PY 2006-07 to
       establish 'Terms of Service' over 10, 11 or 12 months and living stipends will be
       paid according to their term of service. Beginning and ending months will be
       broken out by thirds depending upon each member's start and end date and will
       receive hislher living stipend accordingly. If a member leaves the program early,
       his Iher living stipend will be discontinued immediately.

       Policies and procedures (unexcused absence and exit procedures) have also
       been established and all staff and sites have been trained in those processes to
       ensure that host site supervisors contact staff immediately when a member has
       quit attending their site. All members will be trained in this process during their
       enrollment session prior to beginning their service year.

       In regard to the lump-sum payments, sub-grantees were utilizing the 2004 Grant
       ~rov~sions  and adhering to the terms of their cooperative agreements at that
       time. With the clarification and orohibition of lumw-sum wavments as defined in
       the new rules, lump-sum              will no longe; be issued.

   2. The Commission had inadequate sub-grantee monitoring procedures

Allowable Costs

Response:

       The questioned costs outlined in Schedules A through B of $5,717 have been
       addressed earlier in this report.

       All in-kind labor and fringe benefit match-reporting systems have been revised to
       indicate specific per-hour wages and fringe benefit percentages for each
       individual serving in a supervisory capacity for members. The sub-grantee is in
       the process of re-capturing the information for PY 2004-05 and the balance of PY
       05-06.

       Serve ldaho will ensure that training is provided to all sub-grantees to ensure that
       they understand how to capture the value of these in-kind services.

       The $13,178 that was reported in match was due to human error and has been
       corrected.




                                       -
Serve ldaho Response to OIG Drafl Report 7 pages                               July 24, 2006
        Serve ldaho will instruct sub-grantees to provide documentation on how it
        determines the percentage of costs claimed to support the AmeriCorps program.

Financial Management Systems

Response:

        Serve ldaho is working with Sub-grantees to ensure after-the-fact time reporting.
        Both sub-arantees were followina established procedures of their respective
        agencies.- he sub-grantee in          will utiiize an electronic time reporting
        system beginning PY 2006-2007.

        In relation to the difference between one sub-grantee's in-kind match report and
        their FSR, the sub-grantee's in-kind match spreadsheet has been revised to
        show match by the reporting period, adding a "5th quarter" so that match that
   .~   continues to be reported after the final FSR date is captured. Per advice by
        Cotton & Company an amended FSR will be filed when the 5th quarter match is
        completely accumulated.

        Serve ldaho has distributed an in-kind form for sub-grantee's use that captures
        all of the necessary information. Training will also be provided to sub-grantees
        about the necessity of ensuring and documenting that matching funds are not
        being used to match any other federally assisted program or project.

        Guidance from the Corporation for National and Community Service has been
        requested in relation to reporting program income. This information is not asked
        for in WBRS or on the FSR. As soon as the Commission receives direction from
        the Corporation, it will draft a policy and procedure accordingly.

        Serve ldaho provides due dates for financial status reports and progress reports
        at the beginning of each program year. Programs are instructed to request an
        extension if additional time is needed to complete their reports. This is tracked
        and documented by Serve Idaho's Grants Officer. They are also notified that
        timeliness of reports is taken into consideration during peer reviews of the grants
        each year. Training and timelines will continue to be provided.

OMB Circular A433 Reports

Response:

        Serve Idaho's financial staff person has collected and reviewed all A-133 reports
        from the Commission's sub-grantees for all periods that Commission
        expenditures were incurred and reconciled the Commission expenditures
        included in the audit report to amounts paid to sub-grantees. A policy and
        procedure document has been developed to comply with this finding. Serve
        ldaho respectfully requests documentation from Cotton and Company that states


Serve ldaho Response to OIG Draft Report - 7 pages                             July 24,2006
        the Commission is required to obtain management letters from sub-grantees
        after their program is no longer part of the active Commission portfolio.

Site Visit Documentation

Response:

        The pre site-visit checklist used by Serve ldaho contained questions that were
        duplicated on the site-visit tool and in WBRS, creating duplication. The Grants
        Officer has edited the checklist to eliminate duplication and to better document
        activities performed during site visits on one form. Monitoring site visits are
        conducted by both the Grants Officer and the Financial Technician. In the future,
        both individuals will review the completed documentation to assure accuracy and
        completion. Serve ldaho will continue to strengthen sub-grantee monitoring
        procedures to include more detailed review of allowable costs and
   .~   documentation to ensure that sub-grantees have adequate financial
        management systems in place.

3. The Commission's procedures to ensure compliance with certain grant
   provisions were inadequate.

Member contracts and miscellaneous grant requirements

Response:

        The Serve ldaho Commission has revised its policy relating the Criminal
        backaround checks to ensure that sub-arantees conduct these checks on
                   Members during recruitment and prior to enrollment in AmeriCorps.
        Background checks are in process for the two AmeriCorps members in question.

        The AmeriCorps Member in question from another sub-grantee had been an
        employee of the school district since 2002 when the background check was first
        initiated - serving as an assistant coach for the duration of the time between 2002
        and 2005.

        All programs have established a policy that all members must have a criminal
        background check prior to enrollment. All program sites will also be informed of
        this policy and Serve ldaho will continue to monitor compliance during its site
        visits.

        It has been difficult to receive background check results in a timely manner for
        some AmeriCorps programs. Serve ldaho has been working with the ldaho State
        Police and the ldaho Department of Correction to expedite this process.
        Regardless, Serve ldaho will ensure that sub-grantees adhere to the established
        policy.




                                       -
Serve ldaho Response to OIG Draft Report 7 pages                              July 24,2006
       Serve ldaho has provided revised policies and training to the AmeriCorps
       Program Directors, stating that AmeriCorps Member enrollment forms must be
       signed prior to the start of service. One sub-grantee will host an enrollment
       session for all incoming AmeriCorps Members prior to the start of service.
       During that session allmembers will review and sign their member agreements.
       Historicallv. members sianed their enrollment forms at Pre-Service Orientation,
       which sonktimes took Gace after arriving at their host sites.

       The audit team found that one contract each was missing at two sub-grantee
       offices. One individual become ill prior to PSO and subsequently had to leave
       service due to illness so a contract was never signed. Serve ldaho needs
       clarification on the second member to report on the resolution. The Commission
       will continue to require that all elements are included in AmeriCorps Member
       contracts and that contracts are maintained on file for each AmeriCorps Member.
       This will continue to be included in monitoring site visits.

       In relation to record-retention, all program and fiscal records are kept in
       accordance with AmeriCor~sorovisions in the Serve ldaho oftice. The ldaho
       Department of Correction, 'Serve Idaho's fiscal agent was following the State of
       Idaho's record-retention policies. The ldaho Department of Correction has
       changed its overall policiks and will keep all grants files separate from the regular
       fiscal files. In the future, they will be filed by grant, and they will be kept for as
       long as needed to meet the requirements of the specific grant. In the case of the
       AmeriCorps grant, it will be three years after the successful close-out of the
       grant.

       A new policy has been drafted and Serve ldaho staff will provide written reports
       to the Peer Review Committee on the APR's, FSR's and sit visits for each
       program. The report, given verbally, to date, will include any compliance issues
       that have not been resolved. In addition, the grant-scoring rubric will be edited to
       include the results of the staff reports. These measures will strengthen the ability
       to assess the adequacy of financial management systems and compliance with
       program requirements in the sub-grantee selection process.

4. The Commission's financial management system was inadequate

Response:

       All of the questioned administrative costs are currently being addressed with the
       Corporation for National and Community Service.

       The $829 in in-kind donation from a restaurant has been removed from Serve
       Idaho's in-kind records and the STARS system (Idaho's statewide accounting
       system). The Commission was unable to secure hourly rates of servers at the
       restaurant that participated in the event.




Serve ldaho Response to OIG Draft Report - 7 pages                              July 24, 2006
       $5,450 for the Serve ldaho Conference has been deleted from Serve Idaho's in-
       kind report and taken off of the STARS report (Statewide accounting system).
       Serve ldaho has a new policy to review and provide adequate documentation of
       match.

       Serve ldaho made the proper adjustments and has captured the match for the
       donated printer and ink cartridges. The audit team accepted this adjustment.

       Serve ldaho will continue to monitor its progress on the acquisition and
       documentation of matching funds and in-kind contributions, monitoring progress
       on a quarterly basis.

       Serve ldaho confident that its policies and procedures will be strengthened by the
       recommendations provided through this audit process and is committed to be
       responsible stewards of both the federal and private funds it receives.

       Respectfully submitted,




       Executive Director

       Cc: Rick Samson
           Sam Hadley




Serve ldaho Response to OIG Draft Report - 7 pages                          July 24,2006
          APPENDIX B

          RESPONSE
CORPORATION'S           REPORT
                 TO AUDIT
To:
                      '.
From:
                                                     f
Cc:           Elizebeth Seale, Chief Operating QMicer
              Mike1 ~ e k i n ~ t oDeputy
                                   n,
                                                             ,
                                          Director AmeriCorps State
              Sheny Wright, Audit Resolution Coordinator

Date:         August 4,2006

Sub:          Response to OIG Draft Audit Report, Audit of Corporation for National and
              Community Service grants awarded to Serve Idaho Governor's Commission on
              Service and Volunteerism


Thank you for the opportunity to review the draft report on the audit of Corporation grants
awarded to Serve Idaho, the Governor's Commission on Service and Volunteerism. The
Corporation has also reviewed the response from the Idaho Commission and noted the
Commission has started to implement many of the auditor's recommendations.

We do not have specific comments at this time. The Corporation will respond to all findings and
recommendations in our management decision when the final audit report is issued, we have
reviewed the findings in detail and worked with the Commission to resolve all questioned costs
and findings and recommendations.




                           1201 New York Avenue, NW      *
                                                    Washington, DC 20525
                                                 *
                                 202-606-5000 www.nationalservice.org
                           Senior Corps   * AmeriCorps * Learn and Serve America
